No.

 

 

IN THE
Supreme Court of the GAnited States

ESTEBAN FIGUEROA-LARREA,
Petitioner
v.

UNITED STATES OF AMERICA,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit

Certificate of Service

I, Doug Keller, who was appointed to represent the petitioner under
the Criminal Justice Act, certify that on July 19, 2021, one copy of the
enclosed Petition for a Writ of Certiorari, the Appendix, and Motion to
Proceed In Forma Pauperis in the above-captioned case, were served by first-
class mail, postage prepaid, to counsel for the respondent. I further certify
that all parties required to be served have been served. Service was
addressed as follows:

Elizabeth Prelogar

Acting Solicitor General of the United States
Room 5616

Department of Justice

950 Pennsylvania Avenue, N.W.

Washington, D.C. 20530-0001 n
202.514.2203 WK.

\
Doug Keller
The Law Office of Doug Keller
2801 B Street, #2004
San Diego, California 92102
619.786.1367
